Report No. D-2009-089       June 18, 2009




  Internal Controls Over Government Property
        in the Possession of Contractors
             at Two Army Locations
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AAA                           Army Audit Agency
AFARS                         Army Federal Acquisition Regulation Supplement
AMC                           Army Materiel Command
AR                            Army Regulation
DPAS                          Defense Property Accountability System
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
GFP                           Government-Furnished Property
IG                            Inspector General
PBO                           Property Book Officer
RFAAP                         Radford Army Ammunition Plant
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                                 June 18, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 DOD CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Internal Controls Over Government Property in the Possession of
         Contractors at Two Army Locations (Report No. D-2009-089)

Weare providing this report for review and comment. The Army Installation
Management Command did not respond to the draft report; however, we considered
comments from the Army Materiel Command when preparing the final report.

DoD Directive 7650.3 requires that all issues be resolved promptly. Comments from the
Army Materiel Command were partially responsive. As a result of those comments, we
revised Recommendation l.a. to clarify our intention. We request that the Army Materiel
Command provide comments on Recommendation l.a., and the Army Installation
Management Command provide comments on all recommendations by July 20,2009.

If possible, please send management comments in electronic format (Adobe Acrobat file
only) to AUDDBO@dodig.mil. Copies of the management comments must contain the
actual signature of the authorizing official. We cannot accept the / Signed / symbol in
place of the actual signature. If you arrange to send classified comments electronically,
they must be sent over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868). If you desire, we will provide a formal briefing on the
results.



                                             / ) t •" " ""
                                            ,'1/,.           ~   a'
                                                                  J,
                                            i/ CA/ IVV'C,A...A'>Ll .
                                                                       /"1'C//L:2<r\..,
                                                                         '
                                                                             J   j)
                                                                                 • ~


                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
    Report No. D-2009-089 (Project No. D2007-D000FH-0231.000)                              June 18, 2009

                Results in Brief: Internal Controls Over
                Government Property in the Possession of
                Contractors at Two Army Locations
                                                         unauthorized use, destruction, or loss.
What We Did                                              Implementing the recommendations should
Our objective was to evaluate the Department of          resolve these weaknesses.
the Army internal controls over Government-
furnished property. Specifically, we examined            What We Recommend
databases and processes at the Radford Army              To resolve the control weaknesses over
Ammunition Plant (RFAAP) in Virginia and at              Government property in the possession of
Fort Irwin, California, that accounted for               contractors, the Army should:
existence, completeness, and valuation of
Government property in the possession of                    require contractors to provide updates to
contractors.                                                 capital assets in their property system to
                                                             Property Book Officers or Property
What We Found                                                Administrators;
                                                            require installations to certify the accuracy
The Army did not have adequate internal                      and completeness of data entered into the
controls for the existence, completeness, and                financial reporting system;
valuation of Government property in the                     redefine functional roles and
possession of contractors at RFAAP and Fort                  responsibilities; and
Irwin. Specifically, the internal controls were
                                                            enforce and monitor compliance with
not effective for financial reporting and
                                                             established guidance.
accountability of Government property, valued
at $169.6 million. For example, personnel at
RFAAP and Fort Irwin did not:                            Management Comments and
                                                         Our Response
    report 5 of 45 samples, depreciate 16 of 45
                                                         The Army Installation Management Command
     samples, or adequately support capital assets
                                                         did not provide comments. The Army Materiel
     for 36 of 45 samples;
                                                         Command (AMC) agreed with all but one
    properly document the transfer of property
                                                         recommendation, and its comments were mostly
     accountability to contractors; or
                                                         responsive. Specifically, AMC disagreed with
    provide adequate contract oversight for             requiring contractors to use and update the
     record-keeping, physical inventory, and             Defense Property Accountability System
     identification of Government property.              because Federal guidance allows contractors to
Material internal control weaknesses resulted            use their system.
from noncompliance with DoD and Army                     We agree; however, contractors also were not
guidance for financial reporting, contract               providing updates on capital assets; therefore,
administration, and property accountability and          we revised our recommendation. We request
insufficient oversight processes for Government          that AMC provide further comments and that
property. As a result, the Army financial                the Army Installation Management Command
statements and databases were misstated. In              comment by July 20, 2009. Please see the
addition, the two Army locations may not be              recommendations table on the back of this page.
able to safeguard Government property from


                                                     i
Report No. D-2009-089 (Project No. D2007-D000FH-0231.000)                       June 18, 2009

Recommendations Table
Management                      Recommendations                 No Additional Comments
                                Requiring Comment               Required
Commanding General, Army        1.a.                            1.b., 1.c., 1.d., 1.e., 2.a., 2.b.,
Materiel Command                                                and 3.
Commanding General, Army        1.a., 1.b., 1.c., 1.d., 1.e.,
Installation Management         2.a., 2.b., and 3.
Command



Please provide comments by July 20, 2009.




                                              ii
Table of Contents

Results in Brief                                                         i

Introduction                                                             1

       Objectives                                                       1
       Background                                                       1
       Review of Internal Controls                                      2

Finding. Internal Controls Over Government Property in the Possession
          of Contractors at Two Army Locations                           3

     Management Comments on the Finding and Our Response                10
     Recommendations, Management Comments, and Our Response             10

Appendices

       A. Scope and Methodology                                         15
             Prior Coverage                                             16
       B. Glossary of Technical Terms                                   17

Management Comments

       Army Materiel Command                                            19
Introduction
Objectives
Our overall objective was to evaluate the Department of the Army internal controls over
Government-furnished property. Specifically, we examined whether the processes and
databases at the RFAAP, located in Virginia, and at Fort Irwin, located in California,
accurately accounted for existence, completeness, and valuation of Government property
transferred from and retained by contractors. We examined whether the Army clearly
defined its requirements for the accountability and reporting of Government-furnished
property. See Appendix A for a discussion of scope and methodology. Appendix B
provides a glossary of technical terms used in this report.

Background
According to Public Law 101-576, Chief Financial Officers Act of 1990, as amended,
agency Chief Financial Officers must develop and maintain an integrated agency
accounting and financial management system, including financial reporting and internal
controls. The Chief Financial Officers Act requires that financial reporting and internal
controls comply with applicable accounting principles, standards, and requirements, as
well as internal control standards. In addition, the financial reporting and internal
controls must provide complete, reliable, and timely information that is consistently
prepared and that is responsive to the financial information needs of agency management.
This report discusses the adequacy of internal controls used to account for Government
property in the possession of contractors. Accurate reporting of Government property in
the possession of contractors is essential for an agency to comply with the Chief
Financial Officers Act of 1990.

Federal Acquisition Regulation
In the September 19, 2005, Federal Register, the Civilian Agency Acquisition Council
and the Defense Acquisition Regulation Council proposed to amend the Federal
Acquisition Regulation (FAR) to simplify procedures, clarify language, and eliminate
obsolete requirements related to the management and disposition of Government property
in the possession of contractors. In June 2007, the revised Part 45 of the FAR was
published.

FAR Part 45, “Government Property,” June 2007, defines Government-furnished
property (GFP) as property in the possession of, or directly acquired by, the Government
and subsequently made available to a contractor. Examples of GFP include facilities,
materials, special tooling, special test equipment, and agency-peculiar property. The
FAR further defines Government property as all property owned or leased by the
Government.

GFP is included in the General Property, Plant, and Equipment line of the Balance Sheet.
DoD Components are required to record detailed information on property provided to


                                           1
contractors, including real property (such as Government-owned, contractor-operated
facilities) and DoD property transferred from one contract to another contract in DoD
property accountability systems. DoD property procured or fabricated by a contractor is
required to be accounted for and reported by the contractor until the property is recorded
in DoD property accountability records or systems. Contractors are responsible and
liable for Government property in their possession, unless otherwise provided for in the
contract.

Radford Army Ammunition Plant
RFAAP, located in Radford, Virginia, is a Government-owned, contractor-operated
facility. A Government-owned, contractor-operated partnership allows each partner to
perform duties for which it is uniquely suited. For example, the Government establishes
mission areas, and the private sector implements the missions, using best practices. The
RFAAP mission is to provide U.S. warfighters with propellants and munitions. In
January 1995, the Army entered into a facilities contract for the use, maintenance,
accountability, and disposition of GFP at RFAAP. In April 2003, the Government
property was transferred from the facilities-use contract to the current facilities contract.
Total plant workforce as of September 30, 2006, consisted of approximately 1,350
contractors, 28 Government civilians, and 1 military member.

Fort Irwin
The Installation Management Command at Fort Irwin, California, provides the Army the
installation capabilities and services to support expeditionary operations in a time of
persistent conflict, and provides a quality of life for soldiers and families commensurate
with their service. In September 2000, the Army entered into the current contract to
perform installation support services, such as facilities maintenance, law enforcement,
and fire and emergency response services at Fort Irwin.

Review of Internal Controls
We determined that material internal control weaknesses in the Department of the Army
existed at RFAAP and Fort Irwin, as defined by DoD Instruction 5010.40, “Managers’
Internal Control Program Procedures,” January 4, 2006. The Army internal controls over
its processes and databases did not accurately account for the existence, completeness,
and valuation of Government property in the possession of contractors. Implementing
our recommendations will improve property accountability and financial reporting of
Government property. We will provide a copy of this report to the senior Army official
responsible for internal controls in the Department of the Army.



.




                                              2
Internal Controls Over Government Property
in the Possession of Contractors at Two
Army Locations
Army internal controls over its processes and databases did not accurately account for the
existence, completeness, and valuation of Government property in the possession of
contractors at RFAAP, Virginia and Fort Irwin, California. Specifically, the Army
internal controls at these locations did not ensure that personnel:

      reported 5 of 45 samples, depreciated 16 of 45 samples, or adequately supported
       capital assets for 36 of 45 samples;

      maintained accurate accountable property records for 3 of 59 samples costing a
       total of $542,014, and for 4 of 49 samples costing $5,000 or more;

      performed required inventory counts for 6,328 of 34,152 assets;

      identified and segregated Government property for 6 of 109 samples; or

      properly transferred or updated accountability records.

Controls were not effective because Army personnel did not follow the DoD and Army
guidance for financial reporting, contract administration, and property accountability of
Government property in the possession of contractors. Additionally, the Army did not
have processes to provide adequate contract oversight for Government property at these
two locations.

As a result, Army financial statements and databases were misstated for the two locations
we reviewed. In addition, RFAAP and Fort Irwin may not be able to: produce reliable
information for decision-making; safeguard Government property from unauthorized use,
destruction, or loss; and track and use assets for support of Army operations.

Army Property Systems
On December 22, 1994, the Office of the Secretary of Defense designated the Defense
Property Accountability System (DPAS) as the property accountability system to be used
to provide DoD property and financial information, which is reported to the Defense
Finance and Accounting Service. Specifically, DPAS provides the capability to account
for Government-furnished property, compute depreciation, and report disposals. RFAAP
and Fort Irwin used DPAS to report financial information and account for Government
property in the possession of contractors.

The contractors accounted for Government property in their care using their own property
management systems, instead of DPAS. The RFAAP contractor used a Microsoft Access


                                            3
database to account for Government property. The Fort Irwin contractor accounted for
the Government property in a Costpoint Property Management system and two Microsoft
Word documents. Neither contractor system was able to interface with DPAS to transfer
data.

RFAAP provided a universe of 34,152 assets recorded in its Access database as of
September 13, 2007. Fort Irwin provided a universe of 16,928 assets as of
November 5, 2007, of which 16,574 assets were from the Costpoint system and
354 assets were from the Microsoft Word documents. From those universes, we selected
samples to test the existence, completeness, and valuation of Government property in the
possession of contractors (see Table 1).

                           Table 1. Government Property Tested
                          RFAAP                Fort Irwin                                   Total
                     No. of      Value     No. of       Value                      No. of          Value
                     Assets    (millions)  Assets     (millions)                   Assets        (millions)
Universe             34,152     $132.38    16,928      $37.20                      51,080         $169.58
Valuation                31        $9.28       14*      $2.52                          45           $11.80
Existence                44        $2.84       15        $.01                          59**          $2.85
Completeness             35        $1.07       15         $.02                         50**          $1.09
*We selected 15 assets but tested 14 because the contractor at Fort Irwin erroneously recorded one sample
as $374,085 in the contractor’s property management system; however, documentation showed the item’s
value as $374.85.
**We tested 109 assets in the contractor’s property management system, which included 59 assets tested
for existence and 50 assets tested for completeness.



Financial Data and Processes
Reliable financial information is critical to reducing Government waste, balancing the
budget, and increasing management’s performance capabilities. The Army should have
ensured that its financial statements consistently reported and depreciated assets in the
possession of contractors and that they adequately supported the recorded values of its
assets.

Reporting Capital Assets
RFAAP and Fort Irwin did not consistently report capital assets as required by DoD
Financial Management Regulation (FMR) and Army regulations. The DoD FMR,
volume 4, chapter 6, “Property, Plant, and Equipment,” July 2006, requires the Army to
report capital assets in the financial statements, even if they are in the possession of
contractors. In addition, in Army Regulation (AR) 710-2, “Inventory Management
Supply Policy Below the National Level,” July 8, 2005, the DoD Deputy Secretary of
Defense mandated DPAS as the system of record for General Property, Plant, and
Equipment costing more than $100,000 for Chief Financial Officers Act purposes.
However, the Army did not capture 5 of 45 capital assets, Fort Irwin 2 and RFAAP 3,
valued at $1.8 million, in DPAS.



                                                    4
For example, RFAAP had not entered additions or deletions of capital assets into DPAS
since FY 2005. According to RFAAP personnel, the Army hired a contractor to enter
financial information for all assets with an acquisition value greater than $5,000 into
DPAS. Additionally, in FY 2005, the Comptroller of the Army provided about $64,000
to support Government-owned, contractor-operated facilities converting to DPAS.
However, the Comptroller of the Army has not provided funds for maintenance of DPAS
since the conversion. Consequently, RFAAP has neither maintained DPAS nor modified
its contract for the contractor to update DPAS since FY 2005. Assistant Secretary of the
Army (Financial Management and Comptroller) personnel, who compiled data from
DPAS for the Army financial statements, were not aware that RFAAP was not updating
DPAS until we brought it to their attention in January 2008.

In another instance, Fort Irwin did not report two capital assets valued at $757,373. The
Installation Property Book Officer (PBO) stated that some capital assets may not be
recorded if the Property Administrator does not provide information for him to enter the
property data into DPAS, as required by the Installation Standard Operating Procedures.
The procedures require the contracting office’s designated representative to notify the
PBO when the contractor receives, transfers, or disposes of any GFP. Some capital assets
were not recorded because the PBO was not notified. Requiring RFAAP and Fort Irwin
to certify, each year, that property financial data were accurate and complete would
improve the consistency of the capital assets reported in the Army financial statements.

Depreciation
Of 45 sampled assets, RFAAP and Fort Irwin did not depreciate 16 assets valued at
$3.4 million in accordance with the DoD FMR. For example, Fort Irwin did not
depreciate 13 of 14 assets. However, the DoD FMR, volume 4, chapter 6, requires all
property that equals or exceeds the capitalization threshold of $100,000 to be depreciated.
To capture depreciation in DPAS, personnel at Fort Irwin had to activate the depreciation
function when entering information. However, the installation PBO responsible for
entering the assets did not activate the function. He stated that the Property Book Office
was not assigned this duty, and he thought that the function should be the responsibility
of the financial division. As a result, the Army financial statements did not accurately
report the value of Government property in the possession of contractors. The Army
could improve the accuracy of the financial data by assigning the PBO financial reporting
responsibility.

Supporting Documentation
For 36 of the 45 assets, valued at $8.1 million, RFAAP and Fort Irwin did not maintain
supporting documentation as required by the DoD FMR and Army regulations. The DoD
FMR, volume 4, chapter 6, provides a list of supporting documents that may be used to
support the property acquisitions. The list includes invoices, signed acceptance
documents, and material inspection and receiving reports. In addition, AR 710-2 requires
that all source documentation supporting the initial purchase of capital equipment greater
than or equal to $100,000 be maintained on a permanent basis. However, neither RFAAP
nor Fort Irwin could provide the required documentation to support the recorded value of
capital equipment.


                                            5
For example, Holston Army Ammunition Plant transferred a locomotive, valued at
$185,000, to RFAAP using DA Form 2408-9, “Equipment Control Record.” The DoD
FMR recognizes DA Form 2408-9 as valid supporting documentation. However,
RFAAP received a DA Form 2408-9 that was incomplete because it did not contain the
cost information of the locomotive. Contractor personnel stated that the receiving
contractor phoned the Holston Army Ammunition Plant to obtain the value of the
locomotive and, without obtaining any reliable documentation, the receiving contractor
typed the cost information on the DA 2408-9. Without documentation to support the
stated cost information, the recorded value of the locomotive is not considered reliable.

At Fort Irwin, Army personnel recorded a water truck in DPAS for $6,211, but the
contractor’s property management system recorded the water truck for $112,748. The
installation PBO stated that when documentation is not available to support the data
entered into DPAS, the PBO populates the missing information from the Federal
Logistics Data catalog using the line-item number. Because the Federal Logistics Data
was used to populate missing information instead of valid supporting documentation, it
caused a discrepancy between the two systems for 5 of 14 sampled items, as shown in
Table 2. Without adequate supporting documentation, we could not validate the cost and
purchase dates recorded in DPAS. Consequently, RFAAP and Fort Irwin financial
information could be materially misstated.

           Table 2. Comparison of Cost Records in Absolute Values
                 Cost in Contractor
Property No.           System             Costs in DPAS         Discrepancy
  D04763              $160,466               $172,171              $11,705
  D06046               128,259                110,751               17,508
  D07675               105,329                217,297              111,968
  D06412               205,785                454,500              248,715
  D10002               112,748                   6,211             106,537

Accountability Data and Processes
Accountability is critical to maintaining timely and accurate information on the status and
identity when property moves from contract to contract. Because contractors are
responsible for Government property in their possession, the Army should have ensured
that the contractors had effective internal controls in place to manage and account for
Government property in their possession. In addition, the Army should have maintained
accurate asset information by recording GFP with a unit cost of greater than $5,000 in the
Army property accountability system, DPAS.

Existence
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
and Other Accountable Property,” November 2006, states that accountable property
records must reflect the current status and location of property until disposition. RFAAP
contracts require that contractors maintain records for the official Government property


                                             6
in their care. However, of the 59 assets that were recorded in the RFAAP contractor’s
property management system, 3 of them, valued at a total of $542,014, could not be
located. For example, the contractor did not remove the records of a demolished building
from its property management system. As a result, the contractor’s property management
system did not accurately reflect property in the contractor’s possession.

Completeness of Database
The AR 710-2 requires that Government-furnished equipment costing more than $5,000
be accounted for in the Army property book system. Of 109 1 samples we tested for
existence and completeness in the contractor’s property management system, 49 cost
$5,000 or more. The other 60 samples were less than $5,000 in value and were therefore
not required to be input into DPAS. However, we included the 60 samples in the
existence and the completeness reviews because they were in the possession of
contractors. RFAAP did not maintain records for 4 of the 49 assets in DPAS, as required
by AR 710-2. Property records showed that the four assets, valued at $473,342, were
acquired by RFAAP after an Army contractor updated DPAS in 2005. As a result, DPAS
did not accurately account for assets costing $5,000 or more.

Physical Inventories
The FAR 45.508, “Physical Inventories,” August 2005, requires that contractors
periodically perform a physical inventory of all Government property in their possession
or control, as well as immediately upon termination or completion of a contract.
However, RFAAP did not perform a complete inventory at the end of a contract in
FY 2003. The RFAAP contractor property accountability database showed that 6,328 of
34,152 assets were not included in the close-of-contract physical inventory.

The contractor stated that the FAR Class Deviation 99-00008, July 13, 1999, waived the
inventory requirement. The class deviation, cancelled on July 30, 2007, reduced the level
of record-keeping and physical inventory requirements for low-value property (costing
less than $5,000). Additionally, it allowed the contractors to defer reporting loss,
damage, or destruction of assets until contract termination or completion. However, the
class deviation required, at a minimum, an inventory count for low-value property at the
close of the contract.

RFAAP personnel did not clarify the inventory requirements and concurred with the
contractor on the waiver. As a result, the physical inventory count records did not
accurately reflect actual inventory of Government property in the possession of
contractors and may also increase the risk of unauthorized use, destruction, or loss of
property.




1
  For the completeness and existence testing, we tested 109 samples from the contractor’s property
management system. However, for the completeness of database section of the report we selected 49 of
these assets costing $5,000 or more to be tested in the Army’s database, DPAS.


                                                   7
Property Tag and Ownership
For 6 of 109 sampled assets, RFAAP did not ensure that the contractors either placed an
identification tag on the Government property or maintained physical segregation of
Government property in accordance with DoD Manual 4161.2-M, “DoD Manual for the
Performance of Contract Property Administration,” December 1991. The DoD manual
states that a contractor must identify and mark Government property during the
contractor’s receiving process. It further states that proper identification serves to ensure
that the Government’s assets are not confused with contractor-owned property and are
not used for unauthorized purposes. However, at RFAAP, one asset sold to a contractor
still had its Government identification tag. In addition, we noted items without
identification tags that were commingled with Government property. Contractor
personnel stated that those assets were either contractor-owned or valued at less than
$200. However, without proper identification or physical segregation, there is potential
for the unauthorized use of Government property.

System Review
According to FAR 45.104, “Review and Correction of Contractors’ Property Control
System,” August 2005, contract administration responsibilities must include the review
and approval of the contractor’s property control systems. In addition, DoD
Manual 4161.2-M requires organizations to perform at least one system analysis each
fiscal year. Fort Irwin management created a plan to conduct the system analysis.
However, management did not approve and implement the plan. As a result, Fort Irwin
did not conduct the required system analysis. Although RFAAP personnel performed the
system analysis, they did not identify any control weaknesses in the contractor’s record-
keeping process.

At Fort Irwin, the contractor recorded a bench valued at $374.85 as $374,085 in its
Costpoint Property Management system. According to contractor personnel, it was
merely a typographical error. Fort Irwin had developed a system analysis plan that could
have detected this type of error, but Fort Irwin management did not approve the plan and,
therefore, it was not implemented. Thus, Fort Irwin did not validate the integrity of data
recorded in the contractor’s property management system. In another instance, at
RFAAP, we identified a $30 recording error in the contractor’s records that listed an air
vibratory feeder as $17,663 instead of $17,633. Those errors and discrepancies remained
undetected until our audit because a contractor employee had performed the data-entry
function without receiving adequate supervisory review.

According to DoD Manual 4161.2-M, performing a system analysis helps identify the
need for improved property management practices. However, installation officials at
RFAAP and Fort Irwin were not able to identify that the contractor’s property records
were not accurate. As a result, by not conducting a system analysis at Fort Irwin and not
providing adequate supervisory review at RFAAP and Fort Irwin, installation officials
may not be able to determine if the contractor is efficiently managing Government
property.




                                              8
Identification and Transfer Documentation
Army Federal Acquisition Regulation Supplement (AFARS) 5145.391, “Documentation
of Government Property in Solicitations and Contracts,” October 2001, requires contracts
to contain identification of all GFP, including nomenclature, quantity, acquisition value,
and, where applicable, model number, serial number, and year of manufacture.
Furthermore, the AR 735-5, “Property Accountability – Policies and Procedures for
Property Accountability,” February 2005, requires the Army to transfer accountability of
Government property using DD Form 1149 or DA Form 3161, “Request for Issue or
Turn-In.” However, when the RFAAP and Fort Irwin transferred assets, they did not
have either the specific identification information or the proper transfer documentation.

For example, Fort Irwin listed GFP in the Technical Exhibits section of the contract but
did not include information that would specifically identify the property. For 21 of
30 assets, Fort Irwin did not have a DD Form 1149 or DA Form 3161 to support transfer
of accountability to the contractor. As a result, RFAAP and Fort Irwin did not have
adequate supporting documentation (such as a contract Technical Exhibit or transfer
documentation) for assets held by the contractors to substantiate the assets’ acquisition
cost recorded in their financial reporting database.

Contract Modifications
RFAAP and Fort Irwin did not issue contract modifications to update periodic changes,
such as additions and deletions, to Government property, in accordance with AFARS.
AFARS Subpart 5145.3, “Providing Government Property to Contractors,” October
2001, states that contracting officers must ensure that changes to Government property
made over time be reflected by modification to the contract. However, contracting
officers at RFAAP and Fort Irwin did not modify contracts to document issued or
returned Government property. Some Army personnel said that they were not aware of
the requirement or did not implement the requirement. As a result, the contracting
records did not accurately reflect changes to Government property. In addition, not
having a clear record of property made available to the contractor could limit RFAAP and
Fort Irwin officials’ ability to track and use assets for support of Army operations.

Conclusion
Adequate internal controls are critical to ensuring proper financial reporting and property
accountability. The lack of adequate internal controls over financial reporting could lead
to misstated financial statements. The lack of adequate internal controls over property
accountability could lead to unauthorized use, destruction, or loss of property; and could
affect the ability to track and use assets for support of Army operations.

The Army was responsible for providing reliable financial information. However,
RFAAP and Fort Irwin did not report all of their capital assets in the possession of
contractors, did not take depreciation on capital assets, and did not adequately support
financial data. As a result, the Army financial statements were misstated.




                                             9
Contractors were accountable for Government property in their possession. The Army
was responsible for providing adequate oversight to ensure that contractors safeguarded
Government property from unauthorized use, destruction or loss and maintained property
records that produce reliable information when needed. However, RFAAP and Fort
Irwin did not provide adequate oversight. They did not perform system reviews for
record-keeping, physical inventory, and identification of Government property, and did
not follow guidance when transferring property accountability at the time of contract
award and during the course of contract performance. As a result, property records were
inaccurate and incomplete, and property accountability was not appropriately established
or transferred for all Government property furnished to contractors.

Army internal controls over Government property in the possession of contractors were
not effective to: provide reliable financial data for decision-making; safeguard
Government property; and track and use assets for Army operations support. Therefore,
the Army needs to strengthen controls over Government property in the possession of
contractors by implementing our recommendations.

Management Comments on the Finding and Our
Response
Army Materiel Command Comments
The Executive Deputy to the Commanding General, Army Materiel Command (AMC)
agreed with the finding regarding the internal control weaknesses identified at RFAAP.
Specifically, the Executive Deputy stated that AMC had identified property
accountability as a material weakness at its installations during internal reviews
conducted in FY 2008. Further, the Executive Deputy stated that AMC has begun
corrective actions, including the award of a new contract at RFAAP and the
implementation of a Command Supply Discipline Program, both to occur by the end of
FY 2009.

Our Response
We commend AMC for taking actions to improve internal controls over property
accountability at AMC installations. Implementation of an aggressive Command Supply
Discipline Program will enable AMC to improve property accountability and financial
reporting at its installations and correct internal control weaknesses.

Recommendations, Management Comments, and Our
Response
Revised Recommendation. As a result of management comments, we revised
Recommendation 1.a. to clarify our intention that contracts should include procedures for
contractors to provide information to PBOs or Property Administrators, who can update
their property accounting system to ensure financial compliance for Government property
in their care.


                                           10
1. We recommend that the Army Materiel Command and the Army Installation
Management Command direct contracting offices to:

        a. Write contracts to require contractors to provide updates to capital assets
in their property system to PBOs or Property Administrators for inclusion in the
Army property system to ensure financial compliance with the DoD Financial
Management Regulation and Army Regulation 710-2.

Management Comments
The Executive Deputy, AMC did not agree with the draft recommendation, stating that
although AR 710-2 states that DPAS is the DoD system of choice for accounting for
property, plant, and equipment, it does not dictate DPAS for contractor use. In addition,
AMC explained that FAR 45.103 states that agencies will not generally require
contractors to establish property management systems that are separate from a
contractor’s established system used to account for and manage contractor-owned
property. The Executive Deputy, AMC stated that AMC would ensure compliance with
the use of DPAS by having PBOs and Property Administrators report general property,
plant, and equipment over $100,000.

The Executive Deputy, AMC expressed concern that current Army regulations, the FAR,
or the Regulatory Flexibility Act would not support the recommendation. She added that
to depart from that philosophy to find a solution for tracking property might require
approval from the new Office of Information and Regulatory Affairs per the Paperwork
Burden Act. The Executive Deputy, AMC stated that, if necessary, AMC would
participate with the Department of the Army and the DoD to re-examine how Army
property accountable systems can facilitate the financial aspects of reporting.

The Army Installation Management Command did not comment on the recommendation.

Our Response
Although AMC disagreed, we considered AMC’s comments were partially responsive.
We agree with the AMC position that contracts should not require contractors to use
DPAS. We also agree that requiring PBOs and Property Administrators to report GFP
over $100,000 in DPAS will help ensure financial compliance. We understand the AMC
concerns, but we would like to clarify that those concerns do not meet the intent of the
recommendation. However, our audit identified that contractors were not providing
information on capital assets to PBOs and Property Administrators for inclusion in
DPAS. We revised our recommendation to clarify our intention that management
implement procedures to ensure that updates to capital asset information in the
contractor’s property system are provided to PBOs and Property Administrators for
inclusion in the Army system of choice.

We request that AMC provide additional comments on the revised recommendation and
that the Army Installation Management Command provide comments on the final report
by July 20, 2009.


                                            11
       b. Provide oversight to ensure recording, labeling, inventory, and accounting
for Government property in the possession of contractors, to include the retention of
related supporting documentation.

Management Comments
The Executive Deputy, AMC agreed with the recommendation, stating that AMC would
ensure oversight through the Command Supply Discipline Program, which will assess
each AMC installation at least once every 2 years beginning in October 2009.

The Army Installation Management Command did not comment on the recommendation.

Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.

       c. Conduct a system analysis of contractor’s property control system, as
required by DoD Manual 4161.2-M.

Management Comments
The Executive Deputy, AMC agreed with the recommendation, stating that AMC would
provide assistance to RFAAP to ensure the review is sufficient and in accordance with
DoD Manual 4161.2-M. AMC planned to complete the action by October 2009.

The Army Installation Management Command did not comment on the recommendation.

Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.

      d. Write contracts to require contractors to maintain sufficient property
information to identify Government-furnished property and to establish contractor
property accountability in accordance with the Army Federal Acquisition
Regulation Supplement 5145.391.

Management Comments
The Executive Deputy, AMC agreed with the recommendation, stating that AMC would
conduct a review of contracts to ensure the requirement is being met. AMC further stated
that it would take immediate action for future property transfers and the new contract for
RFAAP, which will be awarded in late FY 2009.

The Army Installation Management Command did not comment on the recommendation.

Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.


                                           12
      e. Issue contract modifications to reflect periodic changes in Government
property in the possession of contractors in accordance with the Army Federal
Acquisition Regulation Supplement 5145.3.

Management Comments
The Executive Deputy, AMC agreed with the recommendation, stating that the Command
Supply Discipline Program would include oversight for contract modifications and that
action would begin immediately.

The Army Installation Management Command did not comment on the recommendation.

Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.

2. We recommend that the Army Materiel Command and the Army Installation
Management Command:

       a. Direct the installation command to certify that year-end property
financial data are accurate, complete, and current.

Management Comments
The Executive Deputy, AMC agreed with the recommendation, stating that AMC would
complete reviews of policy and procedures for financial certification by October 2009.

The Army Installation Management Command did not comment on the recommendation.

Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.

        b. Redefine the roles and responsibilities of the installation property book
office to include the function of financial reporting of Government property.

Management Comments
The Executive Deputy, AMC agreed that adding the financial function to PBO and
Property Administrator roles would increase the Command’s ability to accurately report
financial data. The Executive Deputy also stated that AMC would complete training
programs for civilian PBOs and Property Administrators by December 2009.

The Army Installation Management Command did not comment on the recommendation.




                                          13
Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.

3. We recommend that the Army Materiel Command and the Army Installation
   Management Command develop an approach to enforce the use of standard
   transfer documents when transferring accountability of Government property to
   and from contractors in accordance with Army Regulation 735-5.

Management Comments
The Executive Deputy, AMC agreed with the recommendation, stating that reviews of
property transfers would be part of the Command Supply Discipline Program and would
begin by October 2009.

The Army Installation Management Command did not comment on the recommendation.

Our Response
The AMC comments were responsive. We request that the Army Installation
Management Command provide comments on the final report.




                                         14
Appendix A. Scope and Methodology
We conducted this performance audit from October 2007 through February 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. As of February 2009, the conditions and
causes identified in this report remain relevant. According to management at RFAAP
and Fort Irwin, there have been no changes in the processes, controls, and contract that
affect GFP since the completion of the audit.

We performed an audit of databases, processes, and regulatory requirements for financial
reporting and property accountability of Government property in the possession of
contractors. We conducted the audit at RFAAP, Virginia, from October 15 through 26,
2007, and at Fort Irwin, California, from November 27 through December 6, 2007. At
those sites, we tested the existence, completeness, and valuation of Government property.

For our methodology, we selected two major commands, based on the highest and
median dollar amount of GFP recorded in DPAS. We selected the Army Materiel
Command because it had the highest dollar amount of GFP and the U.S. Army Forces
Command because it had the median dollar amount of GFP. Next, we selected RFAAP
from the Army Materiel Command because it had the highest dollar amount of GFP
recorded in DPAS, and we selected Fort Irwin from the U.S. Army Forces Command
because it had the third highest dollar amount of GFP recorded in DPAS. Finally,
although the Army divided Fort Irwin into two commands (the National Training Center
and Fort Irwin Garrison), the DPAS database did not separate it into two commands.
Therefore, we judgmentally selected the Garrison Command, under the Installation
Management Command, for review.

For our universe, we requested GFP records for sample selection from RFAAP and Fort
Irwin, and they provided official Government property records on September 13, 2007,
and on November 8, 2007, respectively. From those universes, we judgmentally selected
samples for existence and valuation tests. During our existence tests at the sites, we
judgmentally selected samples from the floor to test for completeness. During our site
visits, we also discovered that contractors did not maintain a database for GFP that was
separate from contractor-acquired property and that the data provided for sampling
actually contained both types of Government property in the possession of contractors.
Therefore, we expanded the audit scope to include contractor-acquired property.

We developed review checklists based on criteria established in the FAR, DFARS,
DoD FMR, DoD instructions and manuals, and Army regulations. We interviewed the
Army PBO, property administrators, contracting officers, accounting staff, and contractor
personnel; and examined property records and supporting documentation, including
contracts, transfer documents, hand receipts, inventory records, and accounting records.



                                           15
We also reviewed standard operating procedures for the Army contractors and observed
the contractors’ processes for receiving and recording Government property.

We compared results of our examination and observation to the established criteria to
assess the Army internal controls over financial reporting and accountability of
Government property in the possession of contractors.

Use of Computer-Processed Data
To achieve the audit objective, we used data that originated from a Microsoft Access
database, the Costpoint Property Management system, DPAS provided by RFAAP and
Fort Irwin, and the Defense Finance and Accounting Service. We used the data to
determine the sample of Government property for our review. To determine the data
validity of our sample amounts, we compared the system data to source documents such
as contracts, transfer documents, hand receipts, inventory records, and accounting
records. The assessment indicated that data were sufficiently reliable to meet our audit
objectives.

Use of Technical Assistance
The Quantitative Methods Division (now the Quantitative Methods and Analysis
Directorate) of the Department of Defense Inspector General (DoD IG) provided
assistance. The Division selected a random sample based on the data provided in the
universe, which became the basis for our judgmental sampling.

Prior Coverage
During the last 5 years, the DoD IG and the Army Audit Agency (AAA) have issued four
reports discussing the management of Government-furnished property and systems for
property accountability and financial reporting. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports
can be accessed over the Internet at http://www.aaa,army.mil/reports.htm.

DoD IG
DoD IG Report No. D-2006-046, “Technical Report on the Defense Property
Accountability System,” January 27, 2006

DoD IG Report No. D-2005-092, “Report on Defense Property Accountability System
Controls Placed in Operation and Test of Operating Effectiveness for the Period
September 1, 2004 through April 30, 2005,” July 7, 2005

AAA
AAA Audit Report A-2005-0126-FFE, “Management of Government-Furnished
Property-U.S. Army Garrison Fort Hood, Texas, Validation of Property Book and Unit
Supply Enhanced System,” March 4, 2005

AAA Audit Report A-2004-0473-FFG, “Validation of Property Book and Unit Supply
Enhanced System-Requirements Followup,” September 8, 2004


                                           16
Appendix B. Glossary of Technical Terms
Accountability. Accountability is the obligation imposed by law, lawful order, or
regulation, accepted by an organization or person for keeping accurate records, to ensure
control of property, documents, or funds with or without physical possession. The
obligation, in this context, refers to the fiduciary duties, responsibilities, and obligations
necessary for protecting the public interest; however, it does not necessarily impose
personal liability upon an organization or person.

Best Practices. Best practices are techniques that agencies may use to help detect
problems in the acquisition, management, and administration of service contracts.
Best practices are practical techniques gained from experience that agencies may use to
improve the procurement process.

Capitalization. Capitalization is to record and carry forward into one or more future
periods any expenditure the benefits of which will then be realized. The DoD
capitalization threshold for General Property, Plant, and Equipment, except for real
property, is currently $100,000.

Completeness. Assertions about completeness address whether all transactions and
accounts that should be presented in the financial statements are so included. For the
purpose of this report, completeness addresses whether all Government property found on
the floor at the time of our observation was recorded in the property accountability and
financial reporting systems, as applicable.

Existence. Assertions about existence or occurrence address whether assets or liabilities
of the entity exist at a given date and whether recorded transactions have occurred during
a given period. For the purpose of this report, existence addresses whether Government
property recorded in the contractor’s property management system, which serves as the
official Government property record, physically exists at the time of our observation.

Government Property. Government property means all property owned or leased by
the Government and includes both GFP and contractor-acquired property.

   Government-furnished Property. GFP is property in the possession of, or directly
    acquired by, the Government and subsequently furnished to the contractor for
    performance of a contract.
   Contractor-acquired Property Contractor-acquired property is property acquired,
    fabricated, or otherwise provided by the contractor for performing a contract and to
    which the Government has title.

Internal Controls. Internal controls are the plan of an organization and all methods and
measures adopted within an organization to safeguard its assets, check the accuracy and
reliability of its data, promote operational efficiency, and encourage adherence to
prescribed managerial policies.



                                              17
Physical Inventory. Physical inventory is the verification of property existence,
location, and quantity.

Property Management. Property management is a monitoring and control function that
ensures that organizational processes related to the life cycle of property: (1) support
organization objectives, (2) represent sound business practice, and (3) are compliant with
applicable standards, policies, regulations, and contractual requirements.

Valuation. Assertions about valuation or allocation address whether asset, liability,
equity, revenue, and expense components have been included in the financial statements
at appropriate amounts. For the purpose of the report, valuation addresses whether
financial records of Government property were accurate in terms of acquisition costs and
depreciation.




                                            18
19
20
21
22
